                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                      CLOSEOUT MEMORANDUM

TO: AIGI          File Number: I95040017                                       Date: 17 March 2002

Subject: Closeout Memo                                                                    Page 1 of 1


      There was no closeout written at the time this case was closed. The following information was
      extracted from the file in conformance with standard closeout documents.

      Our office was informed that the subject' was alleged to have impersonated an NSF official by using
      official NSF letterhead to request possible proprietary information. The subject's employe? agreed
      to monitor the employee's action.

      Accordingly this case is closed.




              I    Prepared by:   (                     Cleared by:          11
              I   Agent:          I   Attorney:    1   Supervisor:




 Signature
    date:
